No. 20-745
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ISMAEL LECHUGA, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 2nd day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3250 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 2, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0745
LECHUGA, ISMAEL
USA

JOSH BARRETT SCHAFFER
SCHAFFER LAW OFFICES
1021 MAIN STREET
SUITE 1440
HOUSTON, TX 77002
713-951-9555
JOSH@JOSHSCHAFFERLAW.COM

